        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Special Report
Management Challenges at the
Department of Energy




DOE/IG-0858                      November 2011
                                  Department of Energy
                                    Washington, DC 20585
                                       November 10, 2011


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: "Management Challenges at the Department of
                         Energy – Fiscal Year 2012"

INTRODUCTION

Responsible for executing some of the Nation's most complex and technologically advanced
missions, the Department of Energy faces an array of challenges that are as wide-ranging and
complex as at any time in its history. While the Department's origins can be traced to the
Manhattan Project and the 1973-1974 oil embargo, it has evolved into a multi-faceted agency that
encompasses a broad range of national security, scientific, energy and environmental activities
with an annual budget in excess of $24 billion. Additionally, with the enactment of the American
Recovery and Reinvestment Act in February 2009, the Department received more than $35 billion
in supplemental funding and massive new loan and loan guarantee authority for the acceleration
of a number of efforts, including investments in energy efficiency, renewable energy,
transportation, carbon capture and storage, and a "smart" electric grid.

Annually, the Office of Inspector General identifies what it considers to be the most significant
management challenges facing the Department. Now codified as part of the Reports
Consolidation Act of 2000, this effort assesses the agency's progress in addressing previously
identified challenges and considers emerging issues facing the Department. Unlike prior reports,
we have also identified a series of cost reduction and efficiency enhancement actions for
consideration by Department management. This is intended to assist the Department in dealing
with the likely budget reductions facing most agency programs. Consistent with our mission, the
overall goal is to focus attention on significant issues with the objective of working with
Department managers to enhance the effectiveness of agency programs and operations.

This memorandum and the attachments provide the results of our review of Department of
Energy management challenges for Fiscal Year (FY) 2012.

MANAGEMENT CHALLENGES

                                            Challenges

As noted in previous reports, many of the Department's most significant management challenges
are not amenable to immediate resolution and must, therefore, be addressed through a concerted
effort over time. Given this fact, and based on the results of our body of work over the last year,
the management challenge list for FY 2012 remains largely consistent with that of 2011.
However, given the current economic environment and associated budgetary concerns, we have
added the area of Operational Efficiency and Cost Savings as a new management challenge.
Additionally, due to the decision to terminate the Yucca Mountain Project and the remaining
uncertainty as to the path forward for disposing of spent commercial nuclear waste and high
level defense waste, we now consider Nuclear Waste Disposal to be a significant management
challenge. Finally, as a result of Department efforts, Safeguards and Security, a former
management challenge, has been downgraded.

Thus, the Office of Inspector General's management challenges list for FY 2012 includes:

      Operational Efficiency and Cost Savings
      Contract and Financial Assistance Award Management
      Cyber Security
      Energy Supply
      Environmental Cleanup
      Human Capital Management
      Nuclear Waste Disposal
      Stockpile Stewardship

Should additional information be desired on preexisting challenge areas, readers may consult
recent management challenges reports, which can be found at: http://www.ig.energy.gov/.

                                          Watch List

We also develop an annual "watch list" consisting of significant issues that do not meet the
threshold of a management challenge, yet, in our view, warrant special attention by Department
officials. For FY 2012, the watch list includes: Infrastructure Modernization; Safeguards and
Security; and Worker and Community Safety. Further, this year we have added the Department's
Loan Guarantee Program to the watch list. Given the significance of the funds involved and the
Government's exposure to risk, we believe that heightened and continued focus on this program
is necessary.

MANAGEMENT INITIATIVES

The Department has undertaken a number of new management initiatives intended to increase
operational efficiencies. This includes an effort to achieve and sustain a new framework for
"management and operational excellence." For example, the Department has committed to such
actions as realigning roles and responsibilities, improving contract and project management,
improving transparency, cutting waste, and reapportioning savings. Further, the Department
recently released its inaugural Quadrennial Technology Review (QTR) Report, which assesses
the agency's energy research and development (R&D) portfolios. Additional Department efforts
include programs to reduce the vehicle fleet, achieve cost savings associated with building
energy efficiency measures, and improve efforts to reduce the number of websites. Similarly,
the National Nuclear Security Administration (NNSA) has introduced plans to consolidate the
Management & Operating (M&O) contracts for the Pantex Plant outside of Amarillo, Texas, and
the Y-12 National Security Complex in Oak Ridge, Tennessee, along with specific functions at
the Savannah River Site, in South Carolina. This is intended to consolidate business and
information technology operations at these sites. The Department estimates that savings from

                                               2
such a consolidation would total nearly $900 million over 10 years, although this estimate has
been challenged by the U.S. Government Accountability Office. Moreover, under the new
consolidated contract, the Department hopes to establish new minimum qualifications and
performance "gateways," which are aimed at increasing efficiency and cost effectiveness.

OPERATIONAL EFFICIENCY AND COST SAVINGS

While there are a number of positive initiatives underway, the Department and the Federal
government in general face a new challenge. We know of no other time in recent memory when
there was such a broad and bipartisan consensus concerning the need to reduce Federal spending
and address the Nation's mounting debt. While the elements of various budget reduction plans
under consideration differ on key details, dramatic change appears likely, and the impact on the
Department's operations could be equally dramatic. The impact of the work of the Congressional
"Super Committee" is a prime example of the change that can be anticipated. Given this
atmosphere, we have designated Operational Efficiency and Cost Savings as a special
management challenge facing the Department for FY 2012.

Like all Federal agencies, the Department of Energy has been challenged to "think outside its
comfort zone" in the quest for new and better management practices. In this context, the Office
of Inspector General has developed a series of operational efficiency and cost reduction ideas for
management's consideration. The intent is to highlight possible ways in which the Department
can reduce the overall cost of operations and become more efficient. The topics include:

          Extending the reach of the QTR concept by applying it to the Department's entire science
           and technology portfolio (Exhibit 1);
          Eliminating duplicative NNSA functions (Exhibit 2);
          Establishing a "BRAC-style" commission to analyze the Department's laboratory and
           technology complex (Exhibit 3);
          Reprioritizing the Department's environmental remediation efforts (Exhibit 4); and,
          Re-evaluating the current structure of the Department's physical security apparatus
           (Exhibit 5).

The attached exhibits provide additional details on these suggestions. While the suggestions are
intended to provide a starting point for any conversation, we are mindful of the fact that they
represent approaches which could be both difficult to implement and highly controversial.

In raising these issues, we took into consideration several seemingly unavoidable and perhaps
unpleasant realities. These include the following:

          The Department currently has over 115,000 Federal and contractor personnel1 who ably
           guide the agency in its vital missions. While we could find no precise analysis, the best
           estimate that we could identify suggests that between 60 to 70 percent of all Department
           expenditures support Federal, contractor, subcontractor, and grant recipient staffing costs,
           including direct compensation as well as other benefits. Thus, efforts to decrease the

1
    For FY 2010, this figure includes more than 99,000 contractors and over 16,000 Federal personnel.

                                                           3
       Department's cost structure will invariably result in painful cutbacks in personnel. This
       reality has already begun to take hold, as recent budget uncertainties have led to
       reductions-in-force at several Department facilities.

      The Department has one of the largest contracting portfolios on the civilian side of the
       Federal government. It is unique in that, based on principles established under the
       Manhattan Project in the 1940's and 1950's, contractors manage and operate most of the
       Department's key facilities and sites. As a result, cost reduction efforts, if they are to be
       substantive, must inevitably include contractor operations.

      The Department's facilities, particularly its complex of national laboratories and defense-
       related components, have a rich history of exceptional service to the Nation. Some have
       one-of-a-kind assets that cannot be easily or inexpensively replicated. Therefore, any
       effort to modify the organizational structure of the complex will be challenging,
       tumultuous, and involve navigating a maze of internal and external "moving parts."
       Further, any such effort will require up-front investments necessary to save money over
       time; significant public policy decisions; and potential statutory and administrative
       changes.

      In several states, with New Mexico, Idaho, South Carolina, Washington, and Tennessee
       as prime examples, the Department's facilities and contractor operations are among the
       largest employers and most potent economic generators in those jurisdictions. Any
       change to the organizational structure of the Department's complex will have a significant
       economic impact on these and other states and localities.

The Office of Inspector General has a number of current reviews that are designed to advance
other cost saving proposals. For example, we are currently examining the opportunity to
improve energy efficiency at the Department's numerous data centers. Additionally, we are
considering initiating a review to determine if the Department could make greater use of the
program evaluation technique to enable Department leadership to more readily identify
underperforming programs. We will keep management informed of our progress. We look
forward to working with the Department's leadership in this effort.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief Financial Officer
    Chief of Staff




                                                 4
                                                                                  Exhibit 1
Extend the Reach of the Quadrennial Technology Review Concept by Applying it to the
Department's Entire Science and Technology Portfolio

Background

In September 2011, the Department released its inaugural QTR. Initiated by Secretary Chu and
led by Under Secretary Koonin, the QTR was the first analysis of its kind undertaken by the
Department. In his message prefacing the report, Secretary Chu referred to the hard budget
choices and fiscal challenges facing the Department, concluding that the Department must find
ways to intelligently choose between the many technically viable activities it could pursue.
Secretary Chu advanced the QTR as a mechanism to guide these difficult choices. In his opening
message, Under Secretary Koonin concluded that the QTR established a framework for
investment in energy technology development paths against which the Department can be
judged.

Our view is that the outcome of the QTR, the quality of its analysis, and the richness of the
information developed for the process surpassed expectations. According to the Department, this
was the first time the energy technology component of the Department's science mission was
analyzed in such a systematic way. Among its most notable conclusions regarding Department
priorities going forward:

       Limited resources demand thoughtful and consistent program choices to maximize impact.
       Fundamental R&D and emerging technologies must remain a part of the Department's
        portfolio.
       Currently, the Department focuses too much effort on researching technologies that are
        multiple generations away from practical use at the expense of other engineering research
        that could influence practice in the near term.
       The Department is underinvested in the transportation sector relative to the stationary
        sector.
       The Department is underinvested in activities supporting modernization of the electric
        power grid.

As beneficial as it may be, the QTR's scope was limited to the Department's energy-related
technology sector.

Issue

Key Question: Can the performance of the Department's multi-billion dollar R&D portfolio be
improved through an all-encompassing review of the science and technology program using the
principles established in the QTR?

Path Forward

We concluded that the discipline of the QTR process should be applied to the Department's
entire set of science and technology activities. In making this observation, we are cognizant of
the fact that a strategic plan-style effort for a general science and technology portfolio may be
decidedly more complex than looking at a more limited set of activities such as the energy


                                                 5
                                                                         Exhibit 1 (continued)

technology sector. Forcing choices such as funding high performance computing versus biology
is not easy. Nonetheless, in an environment of constrained resources, a broader QTR process
would help to ensure that:

     The Department's R&D strategy, largely as executed through its laboratory system, is
      consistent with current policy;
     R&D assumptions, as paraphrased in the QTR, are harmonized across technologies;
     Metrics are in place that allow an objective evaluation of the performance of the R&D
      portfolio and of its component parts, most specifically the performance of the
      Department's laboratory system; and,
     The Departmental budgeting process, which is heavily science and technology driven, is
      better informed.

The QTR calls for the development of a strong internal capability to support the energy R&D
strategy and to provide a sound basis for future QTRs. We concluded that this recommendation
would serve as a platform for expanding the QTR process and applying it to the Department's
entire R&D portfolio.




                                              6
                                                                                          Exhibit 2

Eliminate Duplicative, Redundant National Nuclear Security Administration Functions

Background

The National Nuclear Security Administration was established under the Defense Authorization
Act of 2000 as a separately organized agency within the Department of Energy. The National
Nuclear Security Administration was created in response to national security concerns primarily
relating, at the time, to the Department's laboratory activities. In addition, the separation was
intended to allow NNSA to concentrate on its defense-related mission, free of other bureaucratic
distractions. As a result, NNSA maintains a costly set of distinctly separate overhead and
indirect cost operations that often duplicate existing Departmental functions. These include
separate functions in areas such as:

       Chief Information Officer                         Human Resources
       Congressional Affairs                             Procurement and Acquisition
       General Counsel                                   Public Affairs

Issue

The additional expenses associated with these functions are significant. In addition to
headquarters, this concern also manifests itself at a number of field sites where Department and
NNSA activities are co-located (the Oak Ridge Reservation in Tennessee being a prime
example). In addition to cost considerations, these redundancies can complicate communications
and program execution. Currently, the formal alignment between the Department and NNSA
functions is statutorily required. As a result, alterations to the current arrangement would require
new legislation. Further, proponents of the status quo argue that the current organizational
alignment has improved NNSA's effectiveness. The relative merit of these issues
notwithstanding, the sustainability of this arrangement in the current environment needs to be
closely examined.

Key Question: Are the benefits of NNSA's semiautonomous status, with its resulting duplicative
operations, worth the cost?

Path Forward

Pursuant to Public Law 111-84, on October 28, 2009, the Department entered into an agreement
with the National Academy of Sciences to complete a study at NNSA's three major national
laboratories (Lawrence Livermore, Sandia and Los Alamos) to evaluate the quality of the science
and engineering being conducted at each laboratory; the outcomes used by NNSA to assess the
quality of the science and engineering; and the impact of the respective M&O contracts on
science and engineering quality at the laboratories. This study could be utilized as a starting
point in a deliberative process to evaluate the re-incorporation of NNSA into the Department's
organizational structure.




                                                 7
                                                                                                              Exhibit 3

Establish a "BRAC-style" Commission to Analyze the Department's Laboratory and
Technology Complex

Background

The Department operates 16 Federally Funded Research and Development Centers (FFRDC) at
an annual cost of more than $10.4 billion.2 These facilities, with wide variations in mission,
range in size from Ames Laboratory with an annual appropriation of approximately $30 million
to Sandia National Laboratories with a budget of more than $2.3 billion, including nearly $1
billion in "Work for Others" projects. In addition to FFRDC's, the Department has a broad array
of other laboratories and facilities that carry out its science and technology missions. Taken
together, these include:

              Three NNSA defense-related laboratories;
              Thirteen science laboratories, including facilities under the aegis of the Office of
               Science, Office of Energy Efficiency and Renewable Energy, and Office of Nuclear
               Energy;
              Two naval propulsion laboratories (Knolls Atomic Power Laboratory in Schenectady,
               New York and Bettis Atomic Power Laboratory in Pittsburgh, Pennsylvania);
              Five National Energy Technology Laboratory sites in Morgantown, West Virginia;
               Pittsburg, Pennsylvania; Houston, Texas; Albany, Oregon; and Fairbanks, Alaska;
               and
              Other government-operated facilities such as the New Brunswick Laboratory.

In most instances, these laboratories and facilities are managed and operated for the Department
by contractors, including leading industrial firms, colleges and universities, and non-profit
entities.

The Department's Functional Cost Report for FY 2009 identified total support costs and the cost
of mission direct operations for all primary site facility contractors, including the major
laboratories. The support cost categories included functions such as executive direction, human
resources, procurement, legal, safeguards and security, utilities, logistics support, and
information services. The Functional Cost Report disclosed that, on average, support costs
represented between 35 and 40 percent of total laboratory operating costs. Thus, based on the
Department's internal data for FY 2009, total support costs consumed more than $3.5 billion out
of the approximately $10 billion total cost for laboratory operations. We concluded that this cost
structure, specifically the proportion of scarce science resources diverted to administrative,
overhead, and indirect costs for each laboratory, may be unsustainable in the current budget
environment.

Issue

The Department of Energy's science and research portfolio is a primary component of its core
mission and is of essential value to the Nation. While there has been some evolution over the

2
    This figure excludes the sizeable "Work for Others" programs at the Department's national laboratories.

                                                           8
                                                                             Exhibit 3 (continued)

years, the Department's research complex is organized essentially as it has been for over a half-
century. In the current budget situation, we believe the following key questions need to be
addressed:

      Can the Department sustain 16 individual FFRDC's and other related research centers,
       each with significant support cost structures?
      Are there opportunities for laboratory consolidation and realignment, including for
       example, the possibility of consolidating all major non-NNSA laboratories under the
       leadership of the Office of Science?
      In this regard, would an independent consolidation and realignment review be the right
       mechanism for evaluating R&D facility capabilities and ensuring that laboratory efforts
       are properly aligned with agency priorities; that laboratory missions are clear, well
       understood, and properly coordinated; and that the complex is appropriately sized?
      Are there alternative governance models, other than the historic M&O contract, which
       would enhance laboratory efficiency and economy?
      As a means of reducing overhead costs, should the Department consider diverting R&D
       resources to outside technology centers, such as existing universities and non-profit
       research centers?

Path Forward

Using the Department of Defense's Base Closure and Realignment Commission (BRAC)
experience as a guide, the Department should establish an independent panel to comprehensively
examine alternatives for evaluating, consolidating, and/or realigning the Department's R&D
laboratory complex.




                                                9
                                                                                          Exhibit 4

Reprioritize the Department's Environmental Remediation Efforts on a Complex-wide Basis
Utilizing a Risk-Based Strategy – Fund Only High Risk, High Priority Activities

Background

The Department's current unfunded environmental remediation liability is approximately $250
billion. The result of more than 50 years of nuclear defense and energy research work, this effort
involves 2 million acres of land located in 35 states and employs more than 30,000 Federal and
contractor employees. The Department spends about $6 billion per year on its environmental
remediation activities. In doing so, program costs are largely "driven" by 37 individually
negotiated Federal Facility Agreements (FFA) at key Department sites across the Nation. The
FFAs involve no less than 350 milestones at these sites. The FFAs are augmented by numerous
other local agreements with their own set of actions, requirements, milestones and due dates.

Issue

The FFAs and related requirements are the result of individual, site-specific negotiations
between the Department and Federal and state regulators. In many cases, these agreements were
reached after complex, painstaking negotiations over many years. In some cases, the courts are
also involved in these agreements. Modifying these agreements would be a very costly and time-
consuming process and would, understandably, be extremely unpopular with a variety of
constituencies. However, the current strategy may not be sustainable if the Department's
remediation budget suffers major reductions.

Key Question: Are the Department's existing environmental remediation commitments
sustainable in light of current budget realities and, as a corollary, would a risk-based strategy
applied throughout the complex allow for improved targeting of scarce remediation resources?

Path Forward

The Department should consider revising its current remediation strategy and instead address
environmental concerns on a national, complex-wide risk basis. This would result in a form of
environmental remediation triage. Looking at the program holistically, fund only high risk
activities that threaten health and safety or further environmental degradation. Consistent with
this philosophy, where appropriate and consistent with U.S. Environmental Protection Agency
guidance and long term Department land-use planning policies, reduce costs by remediating to
"brownfield" rather than "greenfield" standards.

To ensure that risk drives funding choices and priorities rather than potential local or regional
influences, the Department should retain a respected outside group, such as the National
Academy of Sciences, to rank and rate, on a national, complex-wide risk/priority basis the
Department's environmental remediation requirements. The Department's National Integrated
Priority List could serve as a logical starting point for this exercise.




                                                10
                                                                                           Exhibit 5

Re-evaluate the Current Structure of the Department's Physical Security Apparatus

Background

The Department of Energy is responsible for some of the Nation's most sensitive sites, including
a number of nuclear and defense-related facilities. It spends more than $1 billion per year
providing physical security for these facilities and related materials and data. Of this amount,
nearly $700 million per year is spent on a complex-wide protective force staff of nearly 4,000
highly trained professionals. Using what has been termed as a graded approach, the risks and
vulnerabilities at each site and facility are evaluated to determine the level of "gates and guards"
necessary to provide appropriate physical security.

Issue

The protective force staff is made up almost exclusively by contractor personnel. Their services
are procured using three primary mechanisms. At some facilities, the facility management
contract includes a provision for protective force services as part of the prime contract. At other
locations, the protective force is procured through a stand-alone prime contract awarded by the
Department. Under the third model, the protective force is procured through a subcontract to the
prime facility management contractor. These arrangements, which lack uniformity and
consistency, result in at least 25 separate contract instruments. In March 2010 testimony on this
subject, GAO described this process as, "…not uniformly managed, organized, staffed, trained or
compensated." In prior reports, the Office of Inspector General has noted the lack of consistency
between sites in terms of the procurement of weapons and with regard to certain training
procedures.

Key Question: Can the Department achieve significant savings in the over $1 billion annual
physical security budget by restructuring the way in which it obtains protective force support?

Path Forward

Although this general topic has been the subject of several reviews in recent years, the current
budget situation makes a fresh look worthwhile. We think that all options should be on the table
for consideration. These include, but are not limited to:

       Utilizing a "master contract" (i.e., a single contractor nationwide) to provide security at
        all or essentially all Department facilities;
       Consolidating protective force contracts, using region of the country, nature of the entity
        (NNSA vs. Science laboratories) or some other basis; and/or
       Federalizing the protective force.

It is our view that there may be significant economy of scale cost benefits associated with
protective force contract consolidation. Further, such action could encourage a more uniform and
consistent approach to protective force organization, management, training, and equipment
purchases. It could also improve the system for sharing security best practices and lessons
learned between Department facilities, while providing the staff with greater career opportunities


                                                 11
                                                                           Exhibit 5 (continued)


for advancement by allowing them to move between sites. Finally, consolidation would
reduce the number of contracts, minimizing administrative costs and simplifying the process
of contractor accountability.

We recognize that both GAO and the Department have recently addressed the notion of
federalizing the protective force. While federalization was recently rejected by the
Department, potential benefits include: consistent and uniform treatment, training, and
benefits packages; enhanced continuity of operations; and the potential for cost savings
through the elimination of multiple contract vehicles. As GAO recognized in a 2010 report
on the Department's protective services, "if DOE decides not to take meaningful actions or if
its actions will not achieve intended goals, an examination of other options, including the
federalization of protective forces, may be merited."

It is important that any analysis of protective force alternatives appropriately consider the full
range of options, including those potentially involving significant paradigm shifts. To ensure
that this goal is met, we believe that the Department should engage outside public sector
security experts, such as the Center for Strategic and International Studies, to review the
issue of the protective force configuration with an eye toward reigning in the Department's
cost structure.




                                               12
                                                                IG Report No. DOE/IG-0858

                         CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we
   have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                             Office of Inspector General (IG-1)
                                   Department of Energy
                                  Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
